 

IN THE SUPREME COURT OF THE UNITED STATES

EDUVIGES AYALA-BELLO & WALTER VELEZ-GONZALEZ,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioners,
Eduwiges Ayala-Bello and Walter Velez-Gonzalez, ask for leave to file a Petition for
Writ of Certiorari to the U.S. Court of Appeals for the Ninth Circuit without pre-
payment of fees or costs and to proceed in forma pauperis. The Petitioners were
represented by counsel appointed pursuant to 18 U.S.C. ยง 3006A in the district
court and on appeal to the Court of Appeals for the Ninth Circuit.

Respectfully submitted,

October 1, 2021 KARA HARTZLER
Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900
San Diego, California 92101
Telephone: (619) 234-8467

Attorneys for Petitioner
